U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

January 11, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Michael Sang Han v. United States of America, No. 20-690
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November
13, 2020, and placed on the docket on November 18, 2020. The government’s response is now
due, after one extension, on January 19, 2021. We respectfully request, under Rule 30.4 of the
Rules of this Court, a further extension of time to and including February 18, 2021, within which
to file a response.
This extension is necessary because the attorneys with principal responsibility for final
preparation of the government’s response have been heavily engaged with the press of other
matters before the Court.
Counsel for petitioner does not object to this further extension of time.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-0690
HAN, MICHAEL S.
USA

KEVIN FRANZ KING
COVINGTON & BURLING LLP
ONE CITY CENTER
850 TENTH STREET, NW
WASHINGTON, DC 20001
202-662-5488
KKING@COV.COM

